                           UNITED STATES OFFICE OF PERSONNEL MANAGE ~ROU
                                                 Was hin glo n, DC 204 15             \In'" COP"
                                                                                               I
  Office of the
Inspector Genera l 	                  November 15, 2010                     Report No. 4A-CF-00-IO-0 16


            MEMORANDUM FOR JOHN BERRY
                           Director

            FROM: 	                  PATRlCK E. McFARLAND
                                     Inspector General

            SUBJECT: 	               Audit of the Office of Personnel Management's Fiscal Year
                                     20 10 Special-Purpose Financial Statements


            This memorandum transmits KPMG LLP's (KPMG) report on the Office of Personnel
            Management's (OPM) Fiscal Year 20 10 Closing Package Financial Statements and the
            resu lts ofthc Office of the Inspector General's (OIG) overs ight of the audit and review of
            that report. OPM's Closing Package Financial Statement Reports include the reclassified
            balance sheets, the statements of net cost, the statements of changes in net position, and
            the accompanyin g notes as of September 30, 20 I 0 and 2009; the Additional Note No. 30;
            and the trading partner balance sheets, the statements of net cost, and the statements of
            changes in net posit ion as of September 30, 20 I 0 (hereinafter collectively referred to as
            the specia l-purpose financial statements). These special-purpose financial statements
            directly li nk the entities' audited conso lidated department-level financial statements to
            the Financial Report of the Govenunent (the government-wide financial statements).

            We contracted with the independent ce rtified public accowlting firm Kl'MG to audit
            OPM 's special-purpose financial statements as of September 30, 20 10 and 2009. The
            contract requires that the audit be done in accordance with generall y accepted government
            auditing standards and the Office of Management and Budget Bulletin No. 07 -04, Audit
            Requirements for Federal Financial Statements.

            KPMG repOlied that OPM's special-purpose financial statements are presented fa irl y, in
            all material respects . KPMG noted no matters invo lving the intemal co ntrol over the
            financial process for the spec ial-purpose financia l statements that are considered a
            material weakness or significant deficiency. KPMG disclosed no instances of
            noncompliance or other matters that are required to be reported. The objectives of
            KPMG ' s audits of the special-purpose financial statements did not include expressing an
            opinion on internal controls or compliance with laws and regulations, and KPMG,
            accordingly, does not express such opinions.




         www.opm.gov                                                                            www.u sajob s.go v
Honorable John Berry                                                                      2


OIG Evaluation of KPMG's Audit Performance

In cOlU1ection with the audit contract, we reviewed KPMG's report and related documentation
and made inquiries of its representatives regarding the audit. To fulfill our audit
responsibilities under the Chief Financial Officers Act for ensuring the quality of the audit
work performed, we conducted a review of KPMG's audit of OPM 's Fiscal Year 2010 and
2009 special-purpose financial statements in accordance with Government Auditing Standards
(GAS). Specifically, we:

   •	  reviewed KPMG's approach and planning of the audit;
   •	  evaluated the qualifications and independence of its auditors;
   •	  monitored the progress of the audit at key points;
   •	  examined its working papers related to planning the audit and assessing internal
       contro ls over the financial reporting process;
   • 	 reviewed KPMG' s audit reports to ensure compliance with GAS;
   • 	 coordinated issuance of the audit report; and
   • 	 performed other procedures we deemed necessary.

Our review, as differentiated from an audit in accordance with generally accepted
government auditing standards, was not intended to enable us to express, and we do not
express, opinions on OPM's special-purpose fmancial statements. KPMG is responsible
for the attached auditor's report dated November 15,2010, and the conclusions expressed
in the report. However, our review disclosed no instances where KPMG did not comply,
in all material respects, with the generally accepted GAS.

If you have any questions about KPMG's audit or our oversight, please contact me or
have a member of your staff contact Michael R. Esser, Assistant Inspector General for
Audits, at 606-2143.

Attachnlent


cc: Stephen Agostini
    Chief Financial Officer
